HHS/OIG-Audit--"Office of Inspector General's Partnership Plan - New Jersey Medicaid Selected Programs, (A-02-99-01001)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan - New Jersey Medicaid Selected Programs," (A-02-99-01001)
December 22, 1998
Complete
Text of Report is available in PDF format (2.01 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report addresses whether financial transactions in New Jersey's Medicaid program were related to selected programs,
were reasonable and were properly recorded in the State's accounting system. The audit was made by the New Jersey Office
of the State Auditor (OSA) as part of the Office of Inspector General's partnership efforts with State auditors to expand
audit coverage of the Medicaid program. The OSA noted several procedural and reimbursement issues needing corrective action.
The OSA made a number of recommendations including implementing several prepayment review processes to ensure that services
are appropriate, improving prepayment edits, and other procedural recommendations to improve the efficiency of the Medicaid
program. The OSA also recommended that the State change its policy regarding outpatient services prior to a hospital stay
to coincide with the Federal regulations for Medicare.